No.

IN THE

Supreme CHaurt nf tire llnitcb JBtates
Martin James Kipp,
Petitioner,

v.

Ron Broomfield, Acting Warden,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED INFORMA PAUPERIS

Cuauhtemoc Ortega
Federal Public Defender
Mark R. Drozdowski*
Celeste Bacchi
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
* Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached

Petition for Writ of Certiorari to the United States Court of Appeals for the

Ninth Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner is indigent and was represented by the Office of the Federal Public

Defender for the Central District of California in District Court and in the

Ninth Circuit under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b), and 18
U.S.C. ยง 3599(a)(2).
This motion is brought pursuant to Rule 39.1 of the Rules of the

Supreme Court of the United States.
Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: May 18, 2021

By!_____________ / ,Z I.
MARK R. DROZDOWSKI*
CELESTE BACCHI
Deputy Federal Public Defenders
Attorneys for Petitioner
* Counsel of Record

1

